Appellate Case:'20-1221

Document: 010110404520

FILED

Date

Tenth Circuit
UNITED STATES COURT OF APPEALS September 10, 2020
FOR THE TENTH CIRCUIT

Christopher M. Wolpert
Clerk of Court

GREGORY D. CROSBY, a/k/a Gregory
D. Cosby,
Petitioner - Appellant,
No. 20-1221
(D.C.No. 1:19-CV-03199-WJM)
(D. Colo.)

v.
BILL TRUE, Warden,
Respondent - Appellee.

ORDER AND JUDGMENT*

Before BRISCOE, BALDOCK, and CARSON, Circuit Judges.

Petitioner Gregory D. Crosby, a federal prisoner proceeding pro se, appeals the
district court’s dismissal of his petition for a writ of habeas corpus under 28 U.S.C.
§ 2241 and seeks leave to proceed in forma pauperis} We affirm the dismissal of his
petition and deny his motion to proceed in forma pauperis.

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P.32.1 and 10th Cir. R. 32.1.
1 Because Mr. Crosby is a federal prisoner proceeding under § 2241, a
certificate of appealability is not a prerequisite to his appeal. See McIntosh v. United
States Parole Comm'n, 115 F.3d 809, 810 n.l (10th Cir. 1997).

1
-VM -73

Appellate Case: 20-1221

Document: 010110404520

Date Filed: 09/10/2020

Page: 2

I
Mr. Crosby is a federal prisoner in the custody of the Bureau of Prisons
(“BOP”). He is currently serving a 262-month sentence at the United States
Penitentiary-Administrative Maximum in Florence, Colorado.
Mr. Crosby filed the instant § 2241 petition on November 8, 2019. In his
petition, Mr. Crosby made two claims for relief. First, Mr. Crosby sought to
participate in evidence-based recidivism reduction (“EBRR”) programs and to
receive the associated time credits for completing such programs (the “EBRR
Claim”). Second, Mr. Crosby requested relocation to a United States Penitentiary
closer to his residence (the “Transfer Claim”). The district court denied both claims
without prejudice. The district court denied the EBRR Claim on the merits,
concluding Mr. Crosby's request for access to the EBRR programming was
premature because the BOP had a two-year phase-in period to provide EBRR
programming, and that period had not yet elapsed. See 18 U.S.C. § 3621(h)(2). The
district court denied the Transfer Claim for lack of statutory jurisdiction, because that
claim was not cognizable under § 2241; instead, the district court found that the
Transfer Claim should be brought as a Bivens action. The district court also declined
to consider Mr. Crosby’s hand-written motion for appointment of counsel, because
the motion was illegible.

2

Appellate Case: 20-1221

Document: 010110404520

Date Filed: 09/10/2020

Page: 3

II
Because Mr. Crosby appears pro se, we construe his filings liberally, but we
do not serve as his advocate. See Garrett v. Selby Connor Maddux & Janer, 425 F.3d
836, 840 (10th Cir. 2005).
A. The Transfer Claim
On appeal, Mr. Crosby asserts that the district court erred by failing to convert
his § 2241 petition into a Bivens action. Mr: Crosby failed to raise this issue below,
by either responding to the Warden’s jurisdictional arguments upon reply or by
moving the district court to convert his habeas petition into a civil rights action.
Accordingly, we review for plain error. See Richison v. Ernest Grp., Inc., 634 F.3d
1123, 1130 (10th Cir. 2011).
The district court did not err in declining to sua sponte convert Mr. Crosby’s
Transfer Claim into a Bivens action. Although a district court may have discretion to
convert a pro se prisoner’s claim, nothing in this court’s prior rulings indicates that
failure to do so is error. Indeed, the cases Mr. Crosby relies upon recognize that the
decision to convert a prisoner’s habeas petition into a civil rights action is committed
to the district court’s discretion. See Bell v. United Siates, No. 08-CV-335-WDMKLM, 2009 WL 1609396, at *4 (D. Colo. June 9, 2009) (acknowledging the court
could dismiss for lack of jurisdiction); Jones v. Chester, No. 08-3285-RDR, 2009 WL
331614, at *2 (D. Kan, Feb. 10, 2009) (same). Furthermore, this court has previously
directed district courts to dismiss, without prejudice, a challenge to the place of
confinement improperly brought under § 2241. See, e.g., Palma-Salazar v. Davis,
3

Appellate Case: 20-1221

Document: 010110404520

Date Filed: 09/10/2020

Page: 4

677 F.3d 1031, 1039 (10th Cir. 2012). Here, the district court similarly dismissed,
without prejudice, Mr. Crosby’s Transfer Claim improperly brought under § 2241.
Accordingly, the district court did not err.
B. The Motion for Appointment of Counsel
Mr. Crosby also asserts on appeal that the district court erred by failing to give
or send him an order on his motion for appointment of counsel. To the extent Mr.
Crosby objects to the district court’s ruling, the district court did not abuse its
discretion in declining to consider the motion for being illegible. See Hurt v. United
States, 705 F. App’x 778 (10th Cir. 2017) (dismissing illegible appeal as frivolous).
To the extent Mr. Crosby objects to the district court’s alleged failure to
communicate its order to Mr. Crosby, a notice of the order was, in fact, mailed to Mr.
Crosby at the prison where he is incarcerated. ROA at 106.
C. The EBRR Claim
Mr. Crosby’s appeal, even liberally construed, does not challenge the district
court’s merits ruling on his EBRR Claim. Unlike the Transfer Claim, the district
court did not dismiss Mr. Crosby’s EBRR Claim for lack of statutory jurisdiction.
Thus, Mr. Crosby’s challenge to the district court’s ruling on his Transfer Claim
cannot apply to his EBRR Claim. Mr. Crosby also does not raise any independent
objection to the district court’s ruling on his EBRR Claim. Although Mr. Crosby
asserts that he is eligible to participate in EBRR programming, his eligibility is not at
issue. In fact, the district court acknowledged Mr. Crosby’s eligibility. ROA at 130.
Accordingly, in the absence of Mr. Crosby’s identifying any error by the district
4

Appellate Case: 20-1221

Document: 010110404520

Date Filed: 09/10/2020

Page: 5

court as regards the EBRR Claim, we need not review the district court’s merits
ruling on that claim. See Dodds v. Richardson, 614 F.3d 1185, 1205 (10th Cir. 2010)
)

(“A court of appeals is not required to manufacture an appellant’s argument on
appeal when it has failed in its burden to draw our attention to the error below.”).
D. The Motion to Proceed In Forma Pauperis
Mr. Crosby has also filed a motion to proceed in forma pauperis. Because Mr.
Crosby has not provided a “reasoned, nonfrivolous argument on the law and facts in
support of the issues raised on appeal,” his motion is denied. McIntosh, 115 F.3d at
813 (quotation omitted).
Ill
For the foregoing reasons, we AFFIRM the district court’s dismissal of Mr.
Crosby’s petition and DENY his motion to proceed in forma pauperis.
Entered for the Court

Mary Beck Briscoe
Circuit Judge

5

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 19-cv-3199-WJM
GREGORY D. CROSBY, a/k/a Gregory D. Cosby,
Petitioner,
v.
BILL TRUE, Warden
Respondent.

FINAL JUDGMENT

In accordance with the orders filed during the pendency of this case, and
pursuant to Fed. R. Civ. P. 58(a), the following Final Judgment is hereby entered.
Pursuant to the Order Denying Application for Writ of Habeas Corpus [ECF 32]
entered by United States District Judge William J. Martinez on June 5, 2020, it is
ORDERED that the Application for a Writ of Habeas Corpus Pursuant to 28
U.S.C. § 2241 [ECF 1] is denied. It is further
ORDERED that Applicant’s claim regarding time credits under the First Step Act
is dismissed without prejudice. It is further
ORDERED that Applicant’s claim regarding the location of his confinement is
dismissed without prejudice for lack of statutory jurisdiction. It is further
ORDERED that leave to proceed in forma pauperis on appeal is denied.
This case will be closed.

DATED at Denver, Colorado, this 5th day of June, 2020.
FOR THE COURT:
Jeffrey P. Colwell, Clerk
By:

s/A. Frank
A. Frank
Deputy Clerk

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge William J. Martinez
Civil Action No. 19-cv-3199-WJM
GREGORY D. CROSBY, a/k/a Gregory D. Cosby,
Applicant,
v.
BILL TRUE, Warden
Respondent.

ORDER DENYING APPLICATION FOR WRIT OF HABEAS CORPUS

This matter is before the Court on the Application for a Writ of Habeas Corpus
Pursuant to 28 U.S.C. § 2241 (ECF No. 1) filed pro se by Applicant Gregory D. Crosby
on November 8, 2019. On March 19, 2020, Respondent filed a Response to the
habeas application. (ECF No. 29). Mr. Crosby filed a Reply (ECF No. 31) on April 1,
2020. After reviewing the Application, the Response, the Reply, and the record, the
Court will deny the Application for the reasons set forth below.
I.

Background
Mr. Crosby is a prisoner in the custody of the Federal Bureau of Prisons (“BOP”),

currently incarcerated at Florence ADMAX in Florence, Colorado. In the Application,
Mr. Crosby alleges he is being denied Good Conduct Time Credit, which he is entitled
to under the First Step Act. He further alleges that, pursuant to the First Step Act, he
should be transferred to a federal facility closer to his residence, specifically the United
States Penitentiary in Leavenworth, Kansas. For relief, he requests the opportunity to

receive good conduct time credits by participating in programs developed by the BOP
and that he be moved to a federal prison closer to his residence. {Id. at 9).
II.

Standards of Review
The Court must construe Mr. Crosby’s filings liberally because he is not

represented by an attorney. See Haines v. Kerner, 404 U.S. 519, 520-21 (1972) (per
curiam); Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991). However, the Court
should not be an advocate for a pro se litigant. See Hall, 935 F.2d at 1110.
An application for a writ of habeas corpus pursuant to 28 U.S.C. § 2241 “is an
attack by a person in custody upon the legality of that custody, and . . . the traditional
function of the writ is to secure release from illegal custody.” Preiser v. Rodriguez, 411
U.S. 475, 484 (1973); see also McIntosh v. U.S. Parole Comm’n, 115 F.3d 809, 811
(10th Cir. 1997), Habeas corpus relief is warranted only if Mr. Crosby “is in custody in
violation of the Constitution or laws or treaties of the United States.” 28 U.S.C.
§ 2241(c)(3). “[T]he types of claims cognizable under § 2241 are those in which an
individual seeks either immediate release from, or a shortened period of, physical
imprisonment, i.e., placement on parole or in a parole-like custodial setting, or
immediate release from, or a shortened period of, custody altogether.” Palma-Salazarv.
Davis, 677 F.3d 1031, 1037 n.2 (10th Cir. 2012) (citations omitted).
III.

Analysis
A. Time Credits under the First Step Act
Mr. Crosby first claims that he is being denied the opportunity to receive Good

Conduct Time Credits by participating in BOP evidence-based recidivism reduction

(“EBRR”) programming as required under the First Step Act. (ECF No. 1 at 3).
According to Mr. Crosby, pursuant to Senate Bill 2795 and the First Step Act, he is
eligible to participate in the EBRR programming. However, apparently the BOP does
not have enough programs available, so he is unable to participate and earn the time
credit.
Initially, the Court notes that Mr. Crosby spends most of his Application and his
Reply referencing “Senate Bill 2795.” (See ECF Nos. 1 & 31). However, once a bill is
passed by the legislature and becomes law, it is codified into the United States Code.
See First Step Act of 2018, Pub. L. No. 115-391, 132 Stat. 5194.
Next, Respondent explains that while Mr. Crosby refers to “good conduct time
credits” throughout his application, his claim is actually referring to “time credits” under
the First Step Act based on completing EBRR programs. See e.g., 18 U.S.C.
§3632(d)(4). Although the First Step Act also amended the method for calculating
“good conduct time credits,” such credits are not at issue in Mr. Crosby’s habeas
application. See 18 U.S.C. § 3624(b)(1) (inmates can earn up to 54 days of good
conduct time for each year of their imposed sentence); (ECF No. 29 at 5 n.5 (noting that
the BOP has already updated Mr. Crosby’s statutory release date via good conduct time
credit based on the First Step Act)). The Court agrees with Respondent and, in his
Reply, Mr. Crosby does not dispute this characterization of his claim. (See ECF No. 31).
Thus, liberally construing Mr. Crosby’s claim, he is seeking access to EBRR
programming and the associated time credits for completing such programs. Mr.
Crosby is not entitled to habeas relief for this claim because he has not demonstrated

that his sentence is being executed in violation of the First Step Act or any other
constitutional provision or law.
Section 101 of the First Step Act, portions of which are codified at 18 U.S.C.
§ 3632, initiated a system that allows eligible prisoners to earn time credits for
successfully completing EBRR programming or productive activity participation. See
132 Stat. at 5195; 18 U.S.C. § 3632. Among other things, § 3632 directs the Attorney
General to develop a system that provides “incentives and rewards for prisoners to
participate in and complete an evidence-based recidivism reduction program.” 18
U.S.C. § 3632(d). Those incentives and rewards include time credits earned after
successful completion of EBBR programming or productive activities. 18 U.S.C.
§ 3632(d)(4)(A). Specifically, a prisoner will earn 10 days of time credits for every 30
days of successful participation in EBRR programming or productive activities. 18
U.S.C. § 3632(d)(4)(A)(i). In addition, a prisoner, who is determined to be a minimum or
low risk of recidivating, will earn an additional 5 days of time credits (for a total of 15
days) for every 30 days of successful participation if he has not increased his risk of
recidivism over two consecutive assessments. 18 U.S.C. § 3632(d)(4)(A)(ii). The time
credits earned are applied towards a prisoner’s time in prerelease custody or
supervised release. 18 U.S.C. § 3632(d)(4)(C). Once a prisoner has time credits equal
to the amount of time left on his sentence, the prisoner is eligible for prerelease custody
and/or supervised release if other conditions are also met, including if the prisoner has a
demonstrated recidivism risk reduction or has maintained a minimum or low recidivism
risk. 18 U.S.C. § 3624(g)(1)(B).

Under the First Step Act, the requirement to provide EBRR programming to eligible
prisoners did not go into effect immediately. 18 U.S.C. § 3632(d)(4). First, the Attorney
General was allowed 210 days after the First Step Act was enacted, on December 21,
2018, to develop and publish the Risk and Needs Assessment System, which the BOP
was to use as a guide to implement the programs. 18 U.S.C. § 3632(a). In compliance
with this deadline, the Attorney General published the Risks and Needs Assessment
System on July 19, 2019. See U.S. Dept, of Justice, The First Step Act of 2018: Risk
and Needs Assessment System (July 19, 2019) (https://nii.gov/documents/the-first-stepact-of-2018-risk-and-needs-assessment-svstem.pdfi (last accessed June 1, 2020).
Then, the BOP had 180 days to “implement and complete [an] initial intake risk
and needs assessment for each prisoner” and “begin to expand the effective evidencebased recidivism reduction programs and productive activities.” 18 U.S.C. § 3621(h)(4).
Next, the First Step Act provides a two year phase-in period - beginning on the date
that BOP completed the initial risk and needs assessment for each prisoner - for the
BOP to provide EBRR programs and productive activities for all prisoners. 18 U.S.C.
§ 3621(h)(2)(A).
In this case, Mr. Crosby’s initial risk and needs assessment was completed on
November 15, 2019. (ECF No. 29-1 at j[ 8). He was determined to be eligible to
participate in EBRR programs, but was assessed at a high risk for recidivism. (Id.).
Based on the two-year phase in time period to provide EBRR programming, Mr.
Crosby’s claim requesting access to the EBRR programming is premature. See 18
U.S.C. § 3621(h)(2); see also United States v. Girod, No. CR 5:15-087-DCR, 2020 WL

1931242, at *3 (E.D. Ky. Apr. 21, 2020). According to Respondents, the BOP is in the
process of implementing EBRR programming that will allow inmates to earn time credits
under the First Step Act. (EOF No. 29-1 at 5 U 10).
Based on the two-year phase in time period for the BOP to provide EBRR
programming, Mr. Crosby has not sufficiently alleged any violation of the execution of
his sentence. Mr. Crosby is not currently entitled to any time credit on his sentence
pursuant to participation in or completion of EBRR programming. Further, the BOP has
not violated the First Step Act by not providing such EBRR programming to Mr. Crosby
at this time. Finally, Mr. Crosby has been assessed as having a high risk of recidivism,
so even if he had completed EBRR programming under the First Step Act and had
received time credits, he would not be eligible for prerelease custody or supervised
release under the First Step Act. 18 U.S.C. § 3624 (g)(1)(B) (to be eligible for
prerelease custody or supervised release based on time credits earned for completion
of EBRR programming, an inmate must have shown that his recidivism risk has been
reduced or has been maintained at a minimum or low level). For all of these reasons,
Mr. Crosby has not demonstrated he is entitled to habeas relief on his first claim. This
claim will be denied.
B. Place of Confinement
Next, Mr. Crosby argues that pursuant to the First Step Act, he should be placed
at a facility closer to his home. Specifically, he requests to be placed at the USP in
Leavenworth, Kansas. (ECF No. 1 at 3, 4, 6).

6

The First Step Act requires the BOP to “place the prisoner in a facility as close as
practicable to the prisoner’s primary residence, and to the extent practicable, in a facility
within 500 driving miles of that residence.” 18 U.S.C. § 3621(b). However, this
requirement is tempered by numerous other considerations, including bed availability
and the prisoner’s security designation. Id. Importantly, the First Step Act specifically
precludes judicial review of an inmate’s place of confinement. 18 U.S.C. § 3621(b) (“[A]
designation of a place of imprisonment under this subsection is not reviewable by any
court.”); see also United States v. Tovar-Zamorano, No. 16-20052-JAR, 2019 WL
2005918, at *2 (D. Kan. May 7, 2019).
'Further, the Court agrees with Respondent that Mr. Crosby’s claim, requesting
transfer to a different federal facility, is not a cognizable habeas claim. ‘“[A] request by
a federal prisoner for a change in the place of confinement is properly construed as a
challenge to the conditions of confinement, and, thus, must be brought in a civil rights
action pursuant to [Bivens].’” Palma- Salazar v. Davis, 677 F.3d 1031, 1035 (10th Cir.
2012) (affirming district court's denial, on jurisdictional grounds, of prisoner’s habeas
petition seeking transfer out of super-maximum security prison) (quoting United States
v. Garcia, 470 F.3d 1001, 1003 (10th Cir. 2006) (affirming district court’s summary
denial of motions seeking transfer to facilities located closer to their families)).
As a result, the Court lacks statutory jurisdiction over Applicant’s request to be
placed in another federal facility because the claim challenges the conditions of his
confinement and not the execution of his sentence. Therefore, the habeas claim is
denied.

IV.

Conclusion
In summary, Mr. Crosby is not entitled to any habeas relief and the Application

will be denied. Accordingly, it is
ORDERED that the Application for a Writ of Habeas Corpus Pursuant to 28
U.S.C. § 2241 (ECF No. 1), filed by Applicant Gregory D. Crosby on November 8, 2019,
is DENIED. It is
FURTHER ORDERED that Applicant’s claim regarding time credits under the
First Step Act is DISMISSED without prejudice. It is
FURTHER OREDERED that Applicant’s claim, regarding the location of his
confinement, is DISMISSED without prejudice for lack of statutory jurisdiction. It is
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is
denied. The Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from this
order would not be taken in good faith. See Coppedge v. United States, 369 U.S. 438
(1962). If Applicant files a notice of appeal he must also pay the full $505 appellate
filing fee or file a motion to proceed in forma pauperis in the United States Court of
Appeals for the Tenth Circuit within thirty days in accordance with Fed. R. App. P. 24.
Dated this 5th day of June, 2020.
BY JHHE.COURT:
/
>

William J; art/inez
United States Dfstrict Judge

